Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




         Psychotropic Drug Use
           in Nursing Homes




                   JANET REHNQUIST
                  Inspector General

                     NOVEMber 2001
                     OEI-02-00-00490
                           OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                         HEADQUARTERS

Demetra Arapakos, Project Leader
              Brian Ritchie, Director, Technical Support Staff

Patricia Banta, Lead Analyst
                  Bambi Straw, Program Specialist

Miriam Gareau, Program Analyst
                Barbara Tedesco, Mathematical Statistician

Thomas Zimmerman, Program Analyst

Robert Gibbons, Region IX



.



     To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
            Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei
                        EXECUTIVE SUMMARY

PURPOSE

         To assess the extent and nature of inappropriate psychotropic drug use in nursing homes
         and how it relates to chemical restraints.

BACKGROUND
         The Senate Special Committee on Aging requested that the Office of Inspector General
         look at the extent to which psychotropic drugs in nursing homes are being used as
         inappropriate chemical restraints. Usage rates for these drugs have been increasing since
         1995. A chemical restraint is the use of a drug to control an individual’s behavior and is
         legally appropriate only if used to ensure the physical safety of residents or other
         individuals.

         Psychotropic medications are drugs that affect brain activities associated with mental
         processes and behavior. They are divided into four broad categories: anti-psychotic; anti-
         depressant; anti-anxiety; and hypnotic medications. The Centers for Medicare & Medicaid
         Services established guidelines for the appropriate use of these drugs in nursing homes.
         Several programs exist to monitor the quality of care in nursing homes, including the
         appropriate use of psychotropic drugs. These include the nursing home survey and
         certification process and the State Long Term Care Ombudsman program.

         We combined five methods for this inspection: 1) a medical record review of 485 nursing
         home residents taking psychotropic drugs; 2) an analysis of survey and certification and
         ombudsman program data; 3) an assessment of 135 nursing home Drug Regimen Reviews;
         4) on-site visits to 10 nursing homes; and 5) a telephone survey of 20 survey and
         certification and ombudsmen staff. We excluded anti-depressants from our review.


FINDINGS

Psychotropic drug use in nursing homes is generally appropriate

         Eighty-five percent of residents’ psychotropic drugs use is medically appropriate. Nearly
         all have the potential to benefit functionally from their drug therapy and are using the
         drugs within Medicare guidelines for appropriate use.

         Another 8 percent of residents are using psychotropic drugs inappropriately. These drugs
         are inappropriate for one or more of the following reasons: the dose is too high because


Psychotropic Drug Use in Nursing Homes            i                                    OEI 02-00-00490
         appropriate dose reductions are not followed; there is unjustified chronic use of the drug;
         there is no documented benefit to the resident; the wrong type of drug is being given for a
         particular diagnosis; and there is unnecessary duplicate drug therapy. The use of
         psychotropic drugs as an inappropriate chemical restraint does not appear to be
         widespread; our medical record reviewers could not conclusively determine that any of the
         inappropriate drug use was a chemical restraint. Finally, for 7 percent of residents,
         reviewers could not determine the appropriateness of their psychotropic drug use due to
         insufficient medical record documentation.

Data from survey and certification and ombudsman programs support the
findings of the medical record review

         Deficiencies from the Online Survey Certification Reporting System that directly cite the
         misuse of chemical restraints and psychotropic drugs are not common. Deficiency tag
         F222, (inappropriate chemical restraints) comprises 0.08 percent of all deficiencies in the
         current survey and has decreased slightly over the past four surveys. Further, tag F329
         (unnecessary psychotropic drugs) comprises 2 percent of all deficiencies in the current
         survey and has remained constant. Also, most surveyors in our sample States concur that
         inappropriate chemical restraints are not common.

         Similarly, Ombudsman complaints specific to the inappropriate use of chemical restraints
         and psychotropic drugs are not prevalent. In 1999, complaints about physical and
         chemical restraints accounted for 1 percent of all nursing home complaints, while those
         about the use of psychoactive drugs comprised just 0.25 percent of the total.

A growth in the proportion of nursing home residents with mental disorders may
contribute to increasing psychotropic drug rates

         Data from the Online Survey Certification Reporting System show that from 1995 to 1999
         the overall national drug usage rate for anti-psychotics grew from 16 to 19.4 percent.
         During this time period, anti-anxiety drug rates increased from 14.3 to 15.7 percent. At
         the same time, data from this system show that over the last four surveys the proportion of
         residents with a documented psychiatric disorder, excluding dementia, increased from 13
         to 16 percent and the proportion with behavioral symptoms grew from 29 to 31 percent.
         Further, numerous articles have linked the increasing prevalence of mental disorders
         among nursing home residents to higher psychotropic drug rates.


CONCLUSION

         In response to concerns expressed by the Senate Special Committee on Aging about the
         use of psychotropic drugs as inappropriate chemical restraints in nursing homes, this
         report finds that these drugs are generally being used appropriately. While drug usage


Psychotropic Drug Use in Nursing Homes            ii                                   OEI 02-00-00490
         rates for anti-psychotic and anti-anxiety medications have been rising, most psychotropic
         drug use in nursing homes is medically appropriate. Where it is inappropriate, the
         problems do not appear to be related to inappropriate chemical restraints but rather to
         inappropriate dosage, chronic use, a lack of documented benefit to the resident, and
         inappropriate duplicate drug therapy. We do note, however, that lack of adequate
         documentation for residents’ psychotropic drug use is of some concern. The Centers for
         Medicare & Medicaid Services may consider educating providers to better document the
         appropriate use of these drugs.

AGENCY COMMENTS

         We received comments on the draft report from the Centers for Medicare & Medicaid
         Services. They believe that the report will contribute to a better understanding of
         psychotropic drug use in nursing homes and in identifying areas for further focus. The
         CMS also notes that training related to psychotropic drug use and related documentation
         issues is already underway or planned.




Psychotropic Drug Use in Nursing Homes           iii                                  OEI 02-00-00490
                    TABLE                       OF            CONTENTS


                                                                                                                         PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i 


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Nursing home psychotropic drug use generally appropriate . . . . . . . . . . . . . . . . . . . . . . 8


          Survey and certification and ombudsman data support medical record review . . . . . . . . 10


          Growth in resident mental disorders may contribute to increasing drug rates . . . . . . . . . 11


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDIX


          A: Confidence intervals for key medical record review findings . . . . . . . . . . . . . . . . . . 15


          B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16





Psychotropic Drug Use in Nursing Homes                          iv                                               OEI 02-00-00490
                                   INTRODUCTION

PURPOSE

         To assess the extent and nature of inappropriate psychotropic drug use in nursing homes
         and how it relates to chemical restraints.


BACKGROUND

         The Senate Special Committee on Aging requested that the Office of Inspector General
         look at the extent to which psychotropic drugs in nursing homes are being used as
         inappropriate chemical restraints. Usage rates for these drugs have been increasing since
         1995. A chemical restraint is the use of a drug to control an individual’s behavior and is
         legally appropriate only if used to ensure the physical safety of residents or other
         individuals.

         We are also releasing a companion report entitled “Psychotropic Drug Use in Nursing
         Homes Supplental Information - 10 Case Studies,” OEI-02-00-00491, which presents
         information from on-site visits to ten nursing homes.

Psychotropic Medications

         Psycho-pharmacologic medications are drugs that affect brain activities associated with
         mental processes and behavior. These drugs are also called “psychoactive” or
         “psychotherapeutic” medications. For clarity, we will refer to this class of drugs
         throughout our study as “psychotropics.” Psychotropic medications are divided into four
         broad categories: anti-psychotic; anti-depressant; anti-anxiety; and hypnotic medications.

         Anti-psychotic Drugs. Anti-psychotic medications are used to treat various psychoses
         and neurologic conditions. These include schizophrenia, schizoaffective disorder,
         delusional disorder, psychotic mood disorder, acute psychotic episode, Tourette’s
         syndrome, and Huntington’s disease. Other indications for long-term anti-psychotic use in
         the elderly are organic mental syndromes (including dementia with associated psychotic
         and/or agitated features defined by “certain behaviors” that are harmful to self or others)
         and mood disorders with psychotic features.

         Anti-psychotics are classified as either “conventional” or “atypical.” Conventional anti-
         psychotics have several serious side effects. These side effects prompted the development
         of newer drugs called atypical anti-psychotics, which came onto the market



Psychotropic Drug Use in Nursing Homes            1                                    OEI 02-00-00490
         in the mid 1990s. Clinical trials have demonstrated their effectiveness for a variety of
         disorders in the elderly, including schizophrenia and other psychoses. Although atypical
         anti-psychotics elicit fewer adverse reactions, other characteristics of these drugs, such as
         the effects on resident’s cognition, have not been thoroughly tested.1

         Anti-depressant Drugs. Anti-depressant drugs are usually used in the treatment of
         depression and agitation. Anti-depressants in low dosages are also used to treat insomnia.
         Side effects include excessive sedation, anti-cholinergic effects (dry mouth, constipation,
         urinary retention, blurred near vision, rapid heart rate, confusion, and disorientation),
         orthostatic hypotension (which can predispose a resident to falls), and electro
         cardiographic changes. Most anti-depressants have a long enough half-life that the
         elderly, who have lower tolerance levels for most drugs, require smaller and less frequent
         doses.

         Anti-anxiety and Hypnotic Drugs. Anti-anxiety drugs are used for the short-term
         management of anxiety and insomnia. Hypnotics are medications used for short-term
         sleep aids. However, even lower dosages of these two categories of drugs in the elderly
         population are associated with impairment of daytime functioning and may in some cases
         increase confusion and disorientation, which may in turn exacerbate problem behaviors.2

Omnibus Budget Reconciliation Act of 1987

         On December 22, 1987, Congress enacted comprehensive nursing home reform with the
         Omnibus Budget Reconciliation Act (OBRA) of 1987 (P.L. 100-203). As part of OBRA
         1987, Congress passed the comprehensive Nursing Home Reform Act (NHRA). This Act
         mandates that residents be free from “physical or chemical restraints imposed for the
         purposes of discipline or convenience.” It also states that restraints may only be imposed
         to ensure the physical safety of the resident or other residents and only upon the written
         order of a physician that specifies the duration and circumstances under which the
         restraints are to be used. Further, NHRA limits the use of “as needed” (P.R.N.) orders
         and requires efforts to withdraw the drug or decrease dosage be made for residents who
         are receiving psychotropic drugs.

         Additionally, the Omnibus Budget Reconciliation Act (OBRA) of 1990 requires the
         regulation of certain drugs in nursing homes and the establishment of Drug Regimen
         Reviews for nursing home residents. The provisions of Section 4401 of OBRA 1990


         1
          Cohen, Lawrence, J., Burke, William, J. (1999) “Appropriate Use of Anti-psychotics for
Residents with Dementia in the Long-Term Care Setting,” Consultant Pharmacist 14, (2).
         2
         Stimmel, Glen (1996) “Use of Sedation in Patients with Behavioral Disturbances of Dementia,”
Consultant Pharmacist 11, (Supplement D): 9-11.


Psychotropic Drug Use in Nursing Homes             2                                      OEI 02-00-00490
         involve pharmacists more actively in patient care by refocusing pharmacists from a
         product oriented role to one involving clinical practice responsibilities for reducing
         potential drug therapy problems.

The Centers for Medicare and Medicaid Services Regulations

         To implement the requirements of OBRA 1987, on February 2, 1989, the Center for
         Medicare & Medicaid Services (CMS), formerly known as the Health Care Financing
         Administration, finalized regulations (42 C.F.R §483.25(1)) on anti-psychotic medications
         and unnecessary drugs. These regulations were further refined in 1991. The CMS
         regulations state that each resident’s drug regimen must be free from unnecessary drugs
         and define what is considered an unnecessary drug. An unnecessary drug is any drug
         used:

                   C         in excessive dose; 

                   C         for excessive duration; 

                   C         without adequate monitoring or without adequate indications for its use; 

                   C         in the presence of adverse consequences, which indicate the dosage should

                             be reduced or discontinued; or
                   C         without specific target symptoms.

         In addition, the CMS regulations state that residents who have not previously used anti-
         psychotic drugs should not be given these drugs unless anti-psychotic drug therapy is
         necessary to treat a specific condition as diagnosed and documented in the clinical record.
         Further, the regulation mandates that residents who use anti-psychotic drugs receive
         gradual dose reductions and behavioral interventions, unless clinically contraindicated, in
         an effort to discontinue these drugs.

         In July 1995, the CMS completed the final step in the implementation of OBRA 1987 by
         introducing new tasks into the nursing home survey process. Further refinements to
         survey procedures and interpretive guidelines were implemented on July 1, 1999. Some of
         these are specific to psychotropic drug therapy, including: new investigative protocols and
         the incorporation of quality indicators (QIs) based on the Minimum Data Set (MDS) into
         the off-site survey process; an update to the list of anti-psychotic drugs that can be cited
         as unnecessary or misused under tag number F329; the addition of drug therapy
         guidelines; and a revised definition of medication error. Additionally, the updated CMS
         regulations change some anti-psychotic dosing restrictions and list medications considered
         potentially hazardous to the elderly.

Nursing Home Monitoring Programs

         Several programs exist to monitor the quality of care in nursing homes. These programs
         can act as a safeguard against the use of psychotropic drugs as inappropriate chemical


Psychotropic Drug Use in Nursing Homes                3                                   OEI 02-00-00490
         restraints and provide a venue for receiving and handling complaints about such misuse.

         Nursing Home Survey and Certification. All Medicare and/or Medicaid participating
         nursing homes must be certified in meeting certain Federal requirements. Nursing home
         certification is achieved through routine surveys. The CMS contracts with States to
         perform these surveys for Medicare and dually-eligible nursing homes. All nursing homes
         are subject to an unannounced standard survey “no later than 15 months after the date of
         the previous standard survey.” If during the standard survey a nursing home is found to
         have provided substandard quality of care, an additional extended survey will be
         conducted within 2 weeks. During either type of survey, a surveyor may cite the nursing
         home for a deficiency if that facility fails to meet specific requirements.

         Survey deficiencies are categorized, collected, and reported in the Online Survey
         Certification and Reporting System (OSCAR). Several deficiencies relate directly to
         pyschotropic drug misuse. For example, tag number F329 is cited for all unnecessary
         drugs including: anti-anxiety, anti-depressant, anti-psychotic, and hypnotic drug use. Tag
         number F330 is specific to anti-psychotic drug use in residents who do not have a specific
         condition as diagnosed and documented in the medical record, and tag number F222 is
         cited for inappropriate chemical restraints. In addition, other tags that address quality of
         care, resident’s rights, and drug regimen reviews also indirectly relate to the misuse of
         psychotropic drugs.

         Ombudsman Program. The State Long Term Care Ombudsman program was
         established in 1978 by the Older Americans Act to ensure quality of care and advocacy on
         behalf of long term care residents. It requires that each State have an Ombudsman
         program, which are run by States and local communities and use both paid and volunteer
         staff. The programs have multiple functions including: identifying, investigating, and
         resolving complaints made on behalf of residents; protecting the legal rights of residents;
         and providing information and consultation to residents and families.

         All of the States systematically collect and report data relating to their Ombudsman
         Program under the National Ombudsman Reporting System (NORS). Two of the
         complaint categories in NORS specifically relate to the use of psychotropic drugs - one for
         chemical and physical restraints and the other for psychotropic drug assessment, use, and
         evaluation. Other categories indirectly address this problem, such as weight loss,
         assistance in eating, and functionality.


METHODOLOGY

         We combined five methods for this inspection: 1) a medical record review of residents
         taking psychotropic drugs; 2) an analysis of nursing home survey and certification and



Psychotropic Drug Use in Nursing Homes            4                                     OEI 02-00-00490
         ombudsman program data; 3) an assessment of nursing home Drug Regimen Reviews; 4)
         on-site visits to 10 nursing homes; and 5) a telephone survey of State survey and
         certification and ombudsmen staff. The findings of the on-site visits are presented in a
         companion report, “Psychotropic Drug Use in Nursing Homes Supplemental Information -
         10 Case Studies,” OEI-02-00-00491.

         We excluded anti-depressants from our review because depression in nursing home
         residents has historically been under-diagnosed and under-treated. Therefore, the increase
         in anti-depressant use is generally considered to be appropriate.

Nursing home and resident sample

         We used a two-stage cluster sample for this inspection. In the first stage of sampling, we
         used the OSCAR current survey file to select a random sample of 203 nursing homes.
         For each of the nursing homes in our sample, we requested their enrollment census for the
         month of November 2000. From this census, we asked the nursing homes to identify
         which residents received a psychotropic drug and what type (anti-psychotic, anti-anxiety,
         hypnotics, and/or anti-depressants) they received. We obtained a response from 196 of
         the 203 nursing homes, for an overall response rate of 97 percent.

         In the second stage of sampling, we selected a random sample of 587 nursing home
         residents. From each of the 196 nursing home enrollment lists we randomly selected 3
         residents who received either an anti-psychotic, anti-anxiety, and/or a hypnotic during
         November 2000 (we excluded residents solely on anti-depressants). One nursing home
         had only two residents who met these criteria and we sampled both residents.

Medical record review

         For each of the residents in our sample, we requested their complete clinical records for
         May 2000 through November 2000. Among the documentation we requested were
         admission sheets, plans of care, nurses’ and physicians’ notes, medication administration
         records, psychiatric and neurological assessments, behavior management records, and
         physician orders.

         We received 574 of the 587 medical records that we requested, for a medical record
         response rate of 98 percent. If we had obtained a response from all 203 nursing homes in
         our first stage of sampling and had sampled 3 residents from each one, our overall
         response rate for medical records would have been 94 percent. Of the 574 medical
         records we did receive, we sent 485 for medical record review. The other 89 residents did
         not meet our sampling criteria and were excluded from the medical record review. While
         they were identified by their nursing home as having received a psychotropic drug in
         November 2000, their record showed no evidence that they had actually used the drug.
         Many of these residents had PRN (“as necessary”) orders that were not administered in
         November. Other residents were taking these drugs for non-psychiatric reasons.




Psychotropic Drug Use in Nursing Homes            5                                    OEI 02-00-00490
         We used an independent contractor to conduct the medical record review. First, together
         with the contractor, we developed a screening instrument to review the residents’ records.
         The screening instrument was based on the CMS guidelines for the appropriate use of
         psychotropic drugs. We also obtained input on this instrument from the American
         Association of Geriatric Psychiatrists and the American Medical Directors Association.
         Nurse screeners with geriatric experience initially reviewed all the records; the cases that
         did not pass this initial screening were passed on for second level review.

         Both a geriatric psychiatrist and a consultant pharmacist conducted the second level
         review. These reviewers determined a drug to be inappropriate if, based on the clinical
         documentation in the medical record, the drug was not medically necessary or reasonable.
         See Appendix A for confidence intervals on key findings of the medical record review.

Analysis of nursing home survey and certification and ombudsman program data

         We examined data from both the OSCAR and NORS. In OSCAR, we looked at nursing
         home deficiencies for chemical restraints (F222), unnecessary psychotropic drugs (F329),
         and psychotropic drug use in the absence of a documented diagnosis (F330). In NORS,
         we looked at complaints made to Ombudsman about physical and chemical restraints
         (H60) and psychoactive drugs (H62). For both sets of data, we looked at both the
         prevalence of and changes over time for each of the specific deficiencies and complaints.

Assessment of Drug Regimen Reviews

         From the 196 nursing homes that responded to our request for an enrollment list, we
         requested 6 months of drug regimen reviews (DRRs). Overall, 135 nursing homes
         submitted these DRRs. We did not follow-up with the other 61 nursing homes. We
         reviewed a selection of these DRRs to determine how they assure that psychotropic drugs
         are being used appropriately.

Site visits

         We selected a purposive sub-sample of 10 nursing homes in different States to visit on-
         site. These 10 nursing homes were selected based on five criteria: 1) geographical
         location, 2) number of residents in November 2000, 3) drug usage rate, 4) urban/rural
         location, and 5) ownership status. We chose nursing homes in California, Florida, Idaho,
         Maryland, Massachusetts, Missouri, New York, Ohio, Texas, and Wisconsin. Five of the
         facilities were large (more than 100 residents), four were medium (61-99 residents), and
         one was small (less than 60 residents). Also, four of the homes had a high psychotropic
         drug usage rate (greater than 34 percent), four had a moderate rate (18 to 34 percent),
         and two had rates of less than 18 percent. Lastly, eight of the nursing homes were located
         in an urban area while two were rural, and nine were for-profit while one was non-profit.

         While on-site at these 10 facilities, we interviewed both administrative as well as direct
         care staff. Our administrative interviews included discussions with nursing home


Psychotropic Drug Use in Nursing Homes             6                                     OEI 02-00-00490
         administrators, directors of nursing, medical directors, consultant pharmacists,
         psychiatrists, social workers, and psychologists. We spoke with these respondents about
         how psychotropic drugs are being used and monitored in their facility.
         We also interviewed nurses and certified nurse aides in each facility separately from
         administrative staff about how they care for and monitor residents on psychotropic drugs
         and handle aggressive residents. Lastly, while on-site we spoke with and observed the
         residents in our sample and toured the facility, including observing at least one structured
         activity and meal time.

Telephone interviews with State surveyors and ombudsmen

         For the States represented in our purposive sub-sample, we conducted two structured
         telephone interviews - one with the State ombudsman and the other with the State survey
         and certification director or other manager. During these interviews, we discussed with
         respondents how pyschotropic drugs are being used by nursing homes in their State, the
         nature and extent of inappropriate chemical restraints, and the processes that their State
         has in place to handle such complaints.

Limitations

         Our methodology has two main limitations. First, we assessed the appropriateness of
         psychotropic drugs based solely on a medical record review and not on in-person clinical
         assessments of the residents in our sample. For example, our reviewers state that they
         could not conclusively determine if any inappropriate drug use was an inappropriate
         chemical restraint without a physical examination of the resident. Second, the nursing
         homes in our sample self-identified the residents that were receiving psychotropic drugs in
         November 2000.

         This inspection was conducted in accordance with the Quality Standards for
         Inspections issued by the President’s Council on Integrity and Efficiency.




Psychotropic Drug Use in Nursing Homes             7                                    OEI 02-00-00490
                                         FINDINGS

Psychotropic drug use in nursing homes is generally appropriate

         Our medical record review shows that 85 percent of nursing home residents who take
         psychotropic drugs are taking drugs that are medically appropriate. Another eight percent
         are using psychotropic drugs inappropriately, and for seven percent our reviewers could
         not determine the appropriateness of their psychotropic drug therapy due to insufficient
         medical record documentation. See Graph 1 below.

                                               Graph 1
                             Nursing Home Residents’ Psychotropic Drug Use




                                                       Source: Medical Record Screening Instrument, 2001

Eighty-five percent of residents’ psychotropic drug use is medically appropriate

         Most nursing home residents taking psychotropic drugs are taking drugs that are medically
         appropriate. Nearly all of these residents have the potential to benefit functionally from
         their drug therapy and there is evidence that, for most, their therapeutic goal has been or
         can be achieved. Also, in accordance with the CMS guidelines, in most cases the
         psychotropic drugs are being used at appropriate dosages and duration and not as
         inappropriate duplicate therapy. The drugs are also generally being used with adequate
         indications and monitoring and without adverse consequences.




Psychotropic Drug Use in Nursing Homes            8                                      OEI 02-00-00490
         Nearly all residents taking anti-psychotic drugs (95 percent) or anti-anxiety drugs (93
         percent) have a documented diagnosis of mental illness. More specifically, among
         residents on anti-psychotic drugs, the most common diagnosis is dementia with associated
         psychotic or agitated behaviors (71 percent), while 14 percent have a diagnosis of
         schizophrenia. Close to half of residents taking anti-anxiety drugs (43 percent) have a
         diagnosis of dementia of the Alzheimer’s type with behavioral disturbance. For the few
         residents with no documented mental health diagnosis, most are appropriately taking an
         anti-psychotic or anti-anxiety drug due to an acute problematic behavior.

         We noted several features of nursing homes’ Drug Regimen Reviews (DRRs) that may
         help to assure that psychotropic drugs are used appropriately. These DRRs are conducted
         on a monthly basis by pharmacists to assess residents’ drug treatment plans. Many of the
         DRRs we reviewed include the pharmacist’s recommendation to change a medication in
         order to improve the management of a resident’s behavioral symptoms, as well as a
         recommendation to re-evaluate or discontinue PRN (“when necessary”) drug orders. The
         DRRs also commonly include a suggestion to decrease dosage, a reminder that reduction
         attempts are past due, or an identification of medication errors, such as when
         inappropriate duplicate drugs are being given. In many cases, the resident’s physician
         concurs with the pharmacist’s recommendation and indicates this agreement on the DRR.

Eight percent of residents are using psychotropic drugs inappropriately

         Eight percent of residents who take psychotropic drugs are using these drugs
         inappropriately. These drugs are inappropriate for one or more of the following reasons:
         the dose is too high because appropriate dose reductions are not followed; there is
         unjustified chronic use of the drug; there is no documented benefit to the resident; the
         wrong type of drug is being given for a particular diagnosis; and there is inappropriate
         duplicate drug therapy. For example, in a few cases an additional anti-psychotic drug is
         being given to treat symptoms without dose adjusting on the first drug to a level that
         would effectively treat the resident. In many instances there is no clear documentation to
         support continued need for duplicate or triplicate drug therapy. Residents on more than
         one psychotropic drug are more likely than residents on just one psychotropic drug to be
         taking a medication inappropriately.

         There do not appear to be any nursing home characteristics associated with inappropriate
         use. Neither ownership type nor urban or rural setting are linked with inappropriate use of
         these drugs. Also, nursing homes with higher psychotropic drug usage rates are not more
         likely than homes with medium and low rates to inappropriately use these drugs.
         However, nearly all nursing home surveyors and some ombudsmen we interviewed say
         that inadequate nursing home staffing ratios, training, and experience may be associated
         with a greater likelihood of inappropriate drug use.

         Inappropriate chemical restraints do not appear to be widespread. Our medical record
         reviewers could not conclusively determine that any of the inappropriate drug use was an
         inappropriate chemical restraint. In follow-up discussions with reviewers, all agree that


Psychotropic Drug Use in Nursing Homes            9                                    OEI 02-00-00490
         based on their medical record review, the use of psychotropic drugs as inappropriate
         chemical restraints, solely for the convenience of staff, does not appear to be common.

Seven percent of residents’ medical records lack sufficient documentation to
determine the appropriateness of their psychotropic drug use

         Seven percent of residents we sampled have such inadequate records that our medical
         record reviewers are unable to determine if their drug use is appropriate. Some of these
         residents’ records lack information about their mental health history, while others’ lack
         physician notes on the medical rationale for why the drug is being used. For example,
         several residents were taking hypnotic drugs without any note of sleeping problems in
         their records. However, based on their clinical judgement and other documentation in the
         record, our reviewers believed that these drugs may have been appropriate.

         There are two other ways in which nursing home documentation for these drugs is
         insufficient. Of the records that went for second level review, there was not always
         adequate documentation to explain why residents were taking psychotropic drugs outside
         of the CMS dosage guidelines (even though the medical reviewers determined that the
         dosage was appropriate). Also, some records do not have adequate documentation to
         support the duration of time the resident has been receiving the drug. In fact, our medical
         reviewers cite this as one of the biggest documentation problems. They state that
         documentation to justify the appropriateness of chronic use of pyschotropic drugs is often
         lacking since residents’ records commonly lack physician notes to support ongoing drug
         therapy.


Data from survey and certification and ombudsman programs support
the findings of the medical record review

         The OSCAR deficiencies that directly cite inappropriate psychotropic drugs and chemical
         restraints are not common. Deficiency tag F222, cited for inappropriate chemical
         restraints, comprises 0.08 percent of all deficiencies in the current survey, and the number
         of these deficiencies has been decreasing slightly over the past three surveys. Further, tag
         F329, cited for unnecessary psychotropic drugs, comprises 2 percent of all deficiencies in
         the current survey; the number of these deficiencies has remained constant. Lastly, tag
         F330, cited for the use of a psychotropic drug in the absence of a documented diagnosis,
         accounts for 0.13 percent of all deficiencies; these deficiencies have also seen a small
         decrease. It should be noted that other deficiencies, such as pressure sores and weight
         loss, may indicate that psychotropic drugs are being used as inappropriate chemical
         restraints.

         Similarly, ombudsman complaints specific to the inappropriate use of psychotropic drugs
         and chemical restraints are not prevalent. In 1999, complaints about physical and chemical
         restraints accounted for 1 percent of all nursing home complaints, while those about the
         use of psychoactive drugs comprised just 0.25 percent of the total.


Psychotropic Drug Use in Nursing Homes            10                                    OEI 02-00-00490
         Furthermore, the number of these complaints, while increasing slightly from 1996 to 1998,
         have decreased from 1998 to 1999.

         Also, most surveyors and some ombudsmen in our sample States concur that
         inappropriate chemical restraints are not common. Most of the 10 surveyors we
         interviewed say that use of psychotropic drugs as inappropriate chemical restraints is
         uncommon. While fewer ombudsmen agree, most say that only a small number of nursing
         homes are using the drugs inappropriately. Further, a majority of both surveyors and
         ombudsmen in our sample report that over the past three years, the inappropriate use of
         these drugs as inappropriate chemical restraints has decreased or remained the same.

         Several respondents in our sample States say that chronic drug use may be more of a
         problem. One surveyor says: “The decision to use the drug might be right but [nursing
         homes] might not handle it correctly as [they] go along.” An ombudsman agrees: “[It]
         may have been appropriate to use the drug at the start, but not keep the resident on the
         drug for 5 years.”


A growth in the proportion of nursing home residents with mental
disorders may contribute to increasing psychotropic drug rates

More residents are taking psychotropic drugs

         Since 1995, nursing home psychotropic drug usage rates have increased. This increase
         occurred after initial drops in usage rates following the implementation of OBRA 87. The
         largest increase has occurred with the use of anti-psychotics. Based on OSCAR data,
         from 1995 to 1999 the national rate for anti-psychotics grew from 16 percent to 19.4
         percent, and anti-anxiety drug rates increased from 14.3 percent to 15.7 percent.3
         However, hypnotic drug rates have remained relatively steady at 5 percent for this time
         period.

         Based on our sample, which excluded residents taking only anti-depressants, anti-
         psychotics appear to be the most prevalent of the different groups of psychotropic drugs.
         Sixty-seven percent of residents on psychotropic drugs are taking an anti-psychotic
         medication, while 42 percent are taking an anti-anxiety drug, and far fewer (17 percent)
         are taking a hypnotic medication. Overall, more than half of these residents are taking two
         or more psychotropic drugs.

Nursing homes have a higher proportion of residents with mental disorders

         The population of residents with mental disorders in nursing homes has also been growing.
         Data from OSCAR show that the proportion of all residents with a documented


         3
             American Society of Consultant Pharmacists Fact Sheet, September (2000).


Psychotropic Drug Use in Nursing Homes               11                                 OEI 02-00-00490
         psychiatric disorder, excluding dementia, increased from 13 percent to 16 percent over the
         last four surveys. Also, the proportion of all residents with behavioral symptoms grew
         from 29 percent to 31 percent over the same period. Further, in our telephone interviews
         two ombudsmen say they are seeing more problem behavior and dementia among nursing
         home residents in their States. Lastly, one of our medical record reviewers, a geriatric
         psychiatrist, mentions that nursing homes are different now than they were when OBRA
         87 was first implemented, due to the higher proportion of psychiatric residents.

         Numerous articles have also documented the increasing prevalence of mental disorders
         among nursing home residents. In one article examining the effects of OBRA 87 on
         psychotropic prescribing rates, the authors argue that “the prevalence of psychiatric
         disorders in long-term care facilities is formidable, and nursing homes have become
         defacto mental health facilities.”4 When discussing the impact this has had on
         psychotropic drug use, they caution against “trends that equate low utilization ... with
         high-quality care, without considering other factors such as improvements in the quality of
         life associated with appropriate use of psychotropic medications.”5 In another article from
         the Consultant Pharmacist, the authors state that “the small but meaningful increase in
         usage seen in several categories ... may be explained by an increase in [behavioral] acuity
         of patients.”6

         Lastly, nursing homes appear to be accepting more residents with a history of
         psychotropic drug use. At least one third of the residents in our sample entered the
         nursing home already on their medication. Several of our medical record reviewers point
         out that hospitals’ common use of these drugs results in new nursing home admissions
         who already have a prior history of taking psychotropic medications. Finally, a few of the
         administrators at the nursing homes we visited say that they try to reduce drug levels for
         residents entering the home already taking high dosages.

Four of the 10 nursing homes we visited are actively seeking out psychiatric
patients

         Four of the 10 nursing homes we visited specifically target psychiatric patients. All four
         have psychotropic drug usage rates that are above the national average. These nursing
         homes actively seek out such patients because they have developed the expertise and
         staffing structure necessary to care for residents with a mental illness. Some



         4
          Lantz, Melinda, Giambanco, Vincent, and Buchalter, Eric. (1996) “A Ten-Year Review of the
Effect of OBRA-87 on Psychotropic Prescribing Practices in an Academic Nursing Home,” Psychiatric
Services.
         5
             Lantz, (1996).
         6
         Tobias, Dianne and Pulliam, Charles. (1997) “General and Psychotherapeutic Medication Use in
878 Nursing Facilities: A 1997 National Survey,” Consultant Pharmacist.


Psychotropic Drug Use in Nursing Homes            12                                    OEI 02-00-00490
         administrators mention that in order to remain financially viable, they need to target this
         segment of the nursing home population; residents with lesser care needs or with less
         advanced dementia or Alzheimer’s disease are increasingly going to other long term care
         settings, such as assisted living centers.




Psychotropic Drug Use in Nursing Homes            13                                    OEI 02-00-00490
                                         CONCLUSION


         In response to concerns expressed by the Senate Special Committee on Aging about the
         use of psychotropic drugs as inappropriate chemical restraints in nursing homes, this
         report finds that these drugs are generally being used appropriately. While drug usage
         rates for anti-psychotic and anti-anxiety medications have been rising, most psychotropic
         drug use in nursing homes is medically appropriate. Where it is inappropriate, the
         problems do not appear to be related to inappropriate chemical restraints but rather to
         inappropriate dosage, chronic use, a lack of documented benefit to the resident, and
         inappropriate duplicate drug therapy. We do note, however, that lack of adequate
         documentation for residents’ psychotropic drug use is of some concern. The Centers for
         Medicare and Medicaid Services may consider educating providers to better document the
         appropriate use of these drugs.


AGENCY COMMENTS

         We received comments on the draft report from the Centers for Medicare & Medicaid
         Services. They believe that the report will contribute to a better understanding of
         psychotropic drug use in nursing homes and in identifying areas for further focus. The
         CMS also notes that training related to psychotropic drug use and related documentation
         issues is already underway or planned.




Psychotropic Drug Use in Nursing Homes          14                                   OEI 02-00-00490
                                                                                 APPENDIX A



        Confidence Intervals for Key Medical Record Review Findings

         We calculated confidence intervals for the medical record review key findings. The point
         estimate and 95% confidence intervals are given for each of the following:



                                                            POINT          CONFIDENCE
                           KEY FINDINGS
                                                          ESTIMATE*         INTERVAL
        Nursing home residents who are taking
        psychotropic drugs that are medically
        appropriate                                           85 %           81 % - 89%


        Nursing home residents who are taking
        psychotropic drugs that are medically
        inappropriate                                          8%            5 % - 11%


        Nursing home residents whose medical records
        lack sufficient documentation to determine the
        appropriateness of their psychotropic drug use         7%            4 % - 10 %


                                                                            * N = 485




Psychotropic Drug Use in Nursing Homes          15                                   OEI 02-00-00490
                                                                                 APPENDIX B



                                   Comments on the Draft Report


         In this appendix, we present in full the comments from the Centers for Medicare &
         Medicaid Services.




Psychotropic Drug Use in Nursing Homes          16                                  OEI 02-00-00490
Psychotropic Drug Use in Nursing Homes   17   OEI 02-00-00490
Psychotropic Drug Use in Nursing Homes   18   OEI 02-00-00490
